In the Supreme Court of the United States
No. _______
JOHN TEETS, APPLICANT
v.
GREAT-WEST LIFE & ANNUITY INSURANCE COMPANY.
CERTIFICATE OF SERVICE
I, Peter K. Stris, counsel for applicant and a member of the Bar of this Court, certify
that, on July 3, 2019, a copy of the Application for an Extension of Time to File Petition for
a Writ of Certiorari to the United States Court of Appeals for the Tenth Circuit in the
above-captioned case was sent, by third-party commercial carrier for overnight delivery to
the following and also by electronic mail to those counsel whose e-mail addresses are identified below:

Carter G. Phillips
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
Telephone: 202-736-8000
Facsimile: 202-736-8711
cphillips@sidley.com

Joel S. Feldman
Mark B. Blocker
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, Illinois 60603
Telephone: (312) 853-2030
Facsimile: (312) 853-7036
jfeldman@sidley.com
mblocker@sidley.com
Counsel for Respondent Great-West
Life & Annuity Insurance Company

I further certify that all parties required to be served have been served.
Dated: July 3, 2019
/s/ Peter K. Stris
PETER K. STRIS
STRIS & MAHER LLP
Counsel for Applicant

2

